7g
I

@OCKLE

2311 Douglas Street Le ga 1B riefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-608

MARK ELSTER and SARAH PYNCHON,
Petitioners,

v.
THE CITY OF SEATTLE,
Respondent,

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 12th day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF GOLDWATER INSTITUTE IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

TIMOTHY SANDEFUR

JACOB HUEBERT*

SCHARF-NORTON CENTER FOR
CONSTITUTIONAL LITIGATION
AT THE GOLDWATER INSTITUTE

500 E. Coronado Rd.

Phoenix, AZ 85004

(602) 462-5000

litigation@goldwaterinstitute.org

*Counsel of Record

Counsel for Amicus Curiae
Goldwater Institute

Subscribed and sworn to before me this 12th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

cea, 2 E Clit Qudiow-h, Ghlhy

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39049
 

 

Attorneys for Petitioners

Ethan Winfred Blevins Pacific Legal Foundation
Counsel of Record 930 G Street
Sacramento, CA 95814

EBlevins@pacificlegal.org

Party name: Mark Elster, et al.

916-419-7111

 

Attorneys for Respondent

Roger D. Wynne Seattle City Attorney's Office
Counsel of Record 701 5th Avenue
Suite 2050
Seattle, WA 98104-7097

roger.wynne@seattle.gov

Party name: City of Seattle, Washington

206-233-2177

 
